•F-*

IN THE SUPREME COURT OF THE UNITED STATES

JOHN C. STUART, Petitioner

FILED
APR 23 2021

V.

THE STATE OF ARIZONA, Respondent

supre^^court1^^

PETITION FOR A WRIT OF CERTIORARI
TO THE ARIZONA SUPREME COURT.
i

^ r; r^,

"

f ■■
/

I
*v

JOHN C. STUART, pro se
287294
ASPC: Red Rock / “Vet Pod”
1750 E. Arica Road
Eloy, AZ 85131
Petitioner, Representing Self

n
■

QUESTIONS PRESENTED
This Supreme Court has always held that state courts lack subject-matter jurisdiction in
trials wherein the judge receives additional pecuniary gain for convictions that he will not
receive in an acquittal. Arizona Courts do not agree with, nor abide by, this Supreme Court’s
relevant holdings.
In Arizona, judges do receive additional pay for convictions and sentences from the
Private Prison Corporations. Accordingly, subject-matter jurisdiction is sine qua non to the
following questions.
Does the state court have subject-matter jurisdiction in a trial wherein the judge of which
1.
shall receive extrajudicially paid pecuniary gain (“Graft”) for a conviction and/or sentence that
the judge will not receive for an acquittal or mistrial?
a) If not, is such a conviction and sentence void and/or voidable?
b) Does the fact that the Graft is paid by and/or laundered through a Pension Fund
diminish the effect of the Graft on the subject-matter jurisdiction?

Must Petitioner’s conviction and sentence be vacated due to the fact the judge in
2.
Petitioner’s trial shall [and/or is] receive Graft for the conviction and sentence - pursuant to
Turney v. Ohio. 273 U.S. 510 (1927) and Ward v. Village of Monroeville. 409 U.S. 57 (1972)?
a) If so, is Petitioner considered a “slave” since he is now held as a collateralized
commodity by an Arizona confederate corporation even though Petitioner has not been
“duly convicted” in a court of competent jurisdiction as required by the Thirteenth
Amendment and Article III of the Constitution?
b) If so, should Petitioner be “Emancipated” pursuant to the Emancipation Proclamation
and/or the Thirteenth Amendment and/or this Supreme Court’s holding in U.S. v. Amistad, 40
U.S. (15 Pet.) 518 (1841)?

4

BASIS FOR QUESTIONS
Pursuant to the Thirteen Amendment and Article III of the United States Constitution,
being “duly convicted” in a court of competent subject-matter jurisdiction is sine qua non to
conviction and imprisonment, i.e.: legally held as a “slave” by the Government and/or a
corporation for the Government.
Pursuant to the Due Process Clauses of the Fifth and Fourteenth Amendments the judge’s
impartiality is sine qua non to the trial and sentencing court having subject-matter jurisdiction.
Pursuant to this Supreme Court, the judge’s interest and/or absence of interest in the
outcome of a matter is sine qua non to bias, impartiality, prejudice, and Due Process of Law.
Pursuant to the unconscionable unconstitutional contractual Confederation between the
STATE OF ARIZONA, Arizona, Private Prisons, other States, et al, judges are paid illegal Graft
for convictions and sentences that they are not paid for acquittals and/or mistrials, laundered
through the judges’ Pension Fund, by the Private Prisons to keep the Private Prisons full so that
the Private Prisons can unlawfully acquire taxpayer derived funds.
The Arizona courts and prosecutors consistently discard all arguments presented relevant
to subject-matter jurisdiction by deflecting the arguments towards other jurisdiction concepts,
e.g.: in personum jurisdiction, because the courts (judges) and the State (prosecutors) are well
aware that the courts cannot, and do not, possess the requisite subject-matter jurisdiction due to
the Graft paid by the Private Prisons to the judges for convictions with prison sentences.

5

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

11

QUESTIONS PRESENTED.....................

4

BASIS FOR QUESTIONS.......................

5

6

CERTIORARI SHOULD BE GRANTED
LIST OF PARTIES

7

RELATED CASES

7

STATEMENT OF THE CASE

9

REASONS FOR GRANTING THIS PETITION

11

ACTUAL INNOCENCE

23

CONCLUSION

26

DECLARATION

27

INDEX TO APPENDICES
APPENDIX A

ORDER denying Petition for Emancipation

APPENDIX B

ORDER denying Motion for Reconsideration

INDEX TO EXHIBITS
EXHIBIT A

First trial Jury Question #13 and annotations

EXHIBIT B

Arizona v. Fender decision

EXHIBIT C

Hall v. E.O.R.P.

EXHIBIT D

Arizona Attorney General Opinion

EXHIBIT E

State v. Jacobsen

EXHIBIT F

In the Matter of Green

EXHIBIT G

State ex rel Hansen v. Rigg

EXHIBIT H

Article on Pension Funds

EXHIBIT I

Grand Jury Detail
1

TABLE OF AUTHORITIES
Cases
Tumev v. Ohio. 273 U.S. 510 (1927).............................................

4

Ward v. Village of Monroeville, 409 U.S. 57 (1972).....................

4

U.S. v. Amistad. 40 U.S. (15 Pet.) 518 (1841)................................

4

U.S. v. Ciaravella. Jr.. 716 F.3d 703 (3rd Cir. 2013)........................

6

Stuart v. McMurdie. CV-10-44-PHX-ROS...................................

11

Dugan v. Ohio. 277 U.S. 61 (1928)................................................

12

Arizona v. Fender, No. 1 CA-CR 19-0586 (10/22/2020)................

12

State v. Jacobsen. 141 Ariz. 421 (1984).........................................

13

In the Matter of Green. 67N.C. App. 501 (1984)...........................

13

State ex rel Hansen v. Rigg, 476 U.S. 28 (1986)............................

13

Milke v. Ryan. 711 F.3d 998 (9th Cir. 2013).................................

14

State v. Krone. CR1992-000212-A (PCR - 5/6/2002)....................

14

Hall v. Elected Officials R.P.. 241 Ariz. 33,383 P.3d 1107 (2016)

15

McDonough Power Equip, v. Greenwood, 464 U.S. 548 (1984)...,

16

Smith v. Philips. 455 U.S. 209 (1982)............................................

16

Turner v. Murray, 476 U.S. 28 (1986)............................................

16

O’Sullivan v. Boerckeh 526 U.S. 838 (1999).................................

23

Murray v. Carrier. 477 U.S. 478, 496 (1986).................................

23

McOuiggin v. Perkins, 133 S. Ct. 1924, 1931 (2013).....................

23

Cage v. Louisiana. 498 U.S. 39 (1990)...........................................

23

State v. Eddington. 226 Ariz. 72, 85, 29 (App. 2010).................

25

State v. Dickinson, 242 Ariz. 120 (App. 2017)...............................

25

2

Statutes and Rules
Article I, $ 10. clause 1: “No State shall enter into any Treaty, Allliance, or Confederation.”
Article I. § 8:
Article II, $ 14, Arizona Constitution
Fifth Amendment: “Twice put in jeopardy” “for the same offense”; “Due process of law”
Thirteenth Amendment: “Slavery” without being “duly convicted”.
Fourteenth Amendment: “Due process of law”; “Equal protection of laws.”
18 USCA § 1956: Money laundering
18USCA §§ 1961-1968: R.I.C.O.
18 USCA § 2384: Seditious conspiracy
18 USCA § 2385; Advocating overthrow of Government
18 USCA § 1201: Kidnapping
18 USCA § 1591: Human Trafficking
18 USCA § 7201: Tax fraud
A.R.S. § 39-161: Filing a false document
A.R.S. § 32-2601: Security guards
A.R.S. § 32-2634: Security guards
A.R.S. § 13-1401: Sexual assault
A.R.S. $ 13-1301: Kidnapping
A.R.S. $ 13-1304: Kidnapping
A.R.S. § 13-2201: Commercial fraud
A.R.S. § 13-2301: Organized fraud and terrorism
A.R.S. § 13-2601: Bribery
A.R.S. § 13-2701: Perjury
A.R.S. § 13-2801: Interfering with Judicial Proceedings
Article 4, Declaration of Human Rights

3

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[X For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix AgjB to the petition and is

L\ n k.A$>u) n
[ ] reported at
J or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

f

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix /r____

■Z&jLd

P^j A timely petition for rehearing was thereafter denied on the following date:
_____£?/////3<o3/_____, and a copy of the order denying rehearing
appears at Appendix
__
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

( f

!/

CERTIORARI SHOULD BE GRANTED TO DETERMINE:
1.

If State courts possess the requisite subject-matter jurisdiction to proceed in
criminal trials wherein the judge of which receives Graft only for convictions with
prison sentences, and not for acquittals and/or mistrials;

2.

If the Confederation of Arizona, other States, Private Prison Corporations, et al, violate
the United States Constitution (Art. I, § 10, cl. 1);

3.

If Arizona may allow Private Prisons to transmogrify prisoners into fungible assets to
collateralize the prisoners for profit thus converting human beings into sellable
commodities;

4.

If the Arizona Supreme Court’s ruling to deny Petitioner relief is in direct conflict with
and antinomic to the Third Circuit’s holdings in U.S. v. Ciaravella. Jr.. 716 F.3d 705 (3rd
Cir. 2013) in relevance to the jurisdiction of a trial court wherein the judge of which has a
financial interest in the outcome;

5.

If the Arizona Supreme Court’s ruling has sanctioned the lower courts’ departures from
this Supreme Court’s holdings relevant to jurisdiction; and/or

6.

If the Arizona Supreme Court has thus decided on an important federal question in a way
that conflicts with the relevant decisions of this Supreme Court.

6

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

RELATED CASES
COURT

BEGIN

CASE No.

END

Criminal Trial (1st)

CR2008-106594-001

1/29/2008

Criminal Trial (2nd)

CR2008-106594-001

6/11/2013

8/31/2013

U.S.D.C. -42 USC § 1983

CV-10-44-PHX-ROS

Vehicle Forfeiture

CV2008-004906

A.R.S. § 39-161

CR2008-006332

Special Action (A.S.C.)

1 CA-SA 10-0006

Direct Appeal

1 CA-CR 14-0047

9/8/2014

4/28/2015

CR-15-0193

7/8/2015

2/9/2016

CR2008-106594-001

6/27/2016

P.R. (C.O.A.)

CR-16-0810

11/25/2016

P.R. (A.S.C.)

M-18-0396-PR

P.R. (C.O.A.)
Post-Conviction

Special Action

M-18-0033

3/22/2018

Arizona Habeas (A.S.C.)

HC 18-0034

10/30/2018

CV-19-2540-PHX-GMS-ESW

4/19/2019

20-16380

4/17/2020

11/20/2020

Arizona Emancipation (A.S.C) M-20-0080

9/18/2020

N/A

U.S.D.C. Qui Tam (1)

CV-01831 -PHX-GMS-ESW

9/18/2020

11/5/2020

20-17309

12/14/2020

12/29/2020

CV-02444-PHX-GMS-ESW

12/22/2020

N/A

N/A

N/A

N/A

No. 20-7193

1/28/2021

11/14/2018

Art. VI § 21 (A.S.C.)
U.S.D.C. Habeas
9th Cir.

9th Cir.
U.S.D.C. Qui Tam (2)
9th Cir.
U.S. Supreme Court

7

ALL OF PETITIONER’S OTHER CASES
EACH OF WHICH IS DUE TO THE ORIGINAL CASE
State v. FJ Cruiser. YIN #. CV2008-004906
The State was secretly pursuing foreclosure of Petitioner’s vehicle while also claiming in
the criminal trial that the State “lost” the vehicle and that it was “not evidence”. This case was
dismissed by the civil court based on the State claiming it was “not evidence” while claiming
that it “was evidence” for forfeiture purposes. The contradictory claims by the State is empirical
evidence that suppressing the vehicle was done with bad intent, and the criminal court ruling that
the vehicle was “not evidence” was abjectly egregious abuse of discretion by a biased judge.
State v. Stuart. CR2008-006332 (A.R.S. § 39-161)
The State contrived a false charge to pull Petitioner’s bond. This was the State’s third
attempt to do so. Petitioner is the first person in Arizona history to be charged criminally for a
document that his attorney wrote and filed in court.
Stuart v. McMurdie, Charbel. et al. U.S.D.C.-AZ CV-10-44-PHX-RPS (42 USC § 1983)
Petitioner filed this ‘1983’ because the Arizona judges refused to allow him to be “pro
se” and the prosecutor had scared off his retained counsel - all so Petitioner would be
represented by an incompetent public defender, or be “pro se” from jail.
State v. Stuart. 1 CA-CR 14-0047
Direct Appeal - denied for insufficient oral objection, without regard to the written
objection that was filed pre-trial
Stuart v. Ryan, HC-18-0034
Arizona Supreme Court Habeas Corpus - denied review
Stuart v. Shinn. CV-19-2540-PHX-GMS-ESW
U.S.D.C. - Dist. Of Az. Habeas Corpus - denied review
Stuart v. Shinn, 20-16380
9th Circuit Court of Appeals - Habeas Corpus - denied review
In the matter of Stuart, M-20-0080
Arizona Supreme Court Emancipation - denied review
Stuart Relator, U.S. v. Shinn. CV-01831-GMS (ESW)
QUI TAM - FALSE CLAIMS ACT - denied review
Stuart Relator. U.S. v. Shinn. CV-02444-PHX-GMS (ESW)
QUI TAM - FALSE CLAIMS ACT - denied review
Stuart v. Shinn, 42 U.S.C. § 1983 (USDC - amended from QUI TAM) - pending

8

STATEMENT OF THE CASE
Petitioner filed for Emancipation in the Arizona Supreme Court [just as a juvenile would]
because Petitioner is being held in bondage as a “slave” by a private for profit corporation that
uses “security guards” as soldiers in a private army and/or private police force, in direct violation
of Arizona and Federal law and Constitutions.
Notwithstanding the Federal Government’s powers and authorities to confederate at will
(Article I, § 8), Article I, § 10, clause 1, prohibits the States from Confederating with other
States, persons, nations, corporations, etc.:
“No State shall enter into any Treaty, Alliance, or Confederation.”
Yet, Arizona, along with numerous other States, have contrived a “Confederation”, Id., of
“Profiteers” who have converted the Penal system into an unconstitutional Plantation like for
Profit industry by paying Graft to judges for convictions and for every day of incarceration,
thereby converting the judges into little more than perfidious “Slave traders”.
Accordingly, the Emancipation Proclamation of 1863 and Thirteenth Amendment applies
to Petitioner, et al, just as it did to the “slaves” of that era.
Petitioner is an innocent man that was framed in a second unconstitutional trial in an
Arizona court that lacked subject-matter jurisdiction because the trial judge (both trials) knew
that she would only receive extrajudicially paid Graft for a conviction and long prison sentence,
that she would not receive for an acquittal or mistrial - which is why she sua sponte declared a
mistrial over Petitioner’s repeated objections in the first trial wherein the jury was going to
acquit on the charge to convict on a lesser included, that would not require a prison sentence, and
as such would deprive the judge of the Graft.
Since the improvident conviction, all of the Arizona and federal courts have refused to
acknowledge that the “Graft vs. subject-matter jurisdiction” issue has been presented, and denied
Petitioner a merits review and evidentiary hearing because the Arizona and federal judges
receive Graft for everyday Petitioner is unlawfully incarcerated; paid by the Private Prisons
through the judges’ Pension Fund to launder and conceal the Graft.
In fact, every Arizona criminal trial since 1987 is inclusive of Graft offered to the judges
by the Private Prisons, for everyday that the defendant is imprisoned and therefore exclusive of
subject-matter jurisdiction, i.e.: no prison time = no Graft, and the longer the sentence the more
Graft is paid to the judges.
9

The allegations are easily verified by documents filed into Arizona and Federal
Government agencies, e.g.:
1. Security Exchange Commission
Filings by the Private Prisons and Pension Funds evidencing that the Pension
Funds are invested in the Private Prisons.
2. Internal Revenue Service
Filings by the judges, Pension Funds, Private Prisons, etc., evidencing payments
from Private Prisons to the Pension Funds then to the judges.
3. Arizona Department of Revenue
Filings by the judges, Pension Funds, Private Prisons, etc., evidencing payments
from Private Prisons to the Pension Funds then to the judges.
4. Corporate Incorporation
Filings by the Private Prisons and Pension Funds evidencing that they have
created a “Confederation” of State and Corporations that operate on taxation
derived funds.
5. Other documents
Filings by the Private Prisons claiming that the inmates held by them are
transmogrified into fungible assets and collateralized to secure credit, loans, etc.,
i.e.: inmates are held commodified as “slaves”.
Petitioner represented himself in the first trial and won an acquittal on the contrived
charges of second-degree murder and drive by shooting by evincing that the deceased was high
on illicit drugs and alcohol and attacking Petitioner inside of Petitioner’s vehicle when shot - so
the judge declared a mistrial over Petitioner’s objections and intentionally lied to the jury about
Arizona law (Exhibit A, Jury Question #13 with annotations) and then later refused to allow
Petitioner to represent himself in the second trial.
There is nothing in the record to evidence, or even suggest, that jeopardy was removed
from the first trial because no pro forma acts were committed by the State or Court to remove
jeopardy from the first trial; and the judge refused to consider, or even allow Petitioner to proffer
alternatives to the sua sponte declaration of mistrial.
The whole of the record in this matter conclusively proves that Arizona courts are
systemically corrupt and well aware that Arizona trials lack the requisite subject-matter
jurisdiction due to the Graft, but no judge will rule in favor of Petitioner and/or pursuant to the
law or this Supreme Court’s holdings since such a ruling would end the Graft.

10

REASONS FOR GRANTING THE PETITION
NO LOWER FEDERAL COURT OR STATE COURT WILL RULE AGAINST THE
“PRIVATE PRISONS” BECAUSE THE JUDGES OF THOSE COURTS RECEIVE THE
“GRAFT” FROM THE PRIVATE PRISON AS DETAILED BELOW
Circuit Court and State Courts Disagree

A.

The advent of Private Prisons1 created a complete paradigm shift in the judiciary and
“justice system” in Arizona, similar to those changes in Luzerne County Pennsylvania Juvenile
Court2 (ca. 2005), the Village of Monroeville3 (ca. 1970), and the State of Ohio4 (ca. 1925).
In all of the above listed places, once the trial judges started receiving pay for convictions
and/or prison sentences that the judges did not receive for acquittals and/or mistrials, the
conviction rate increased greatly and the prison sentences became draconian.
In the former [Arizona], the incarcerated population has grown at twice the rate of the
State’s population since the Private Prisons Confederated with the State of Arizona (ca. 1987).
In the three latter [Pennsylvania and Ohio], the pay to convict schemes were terminated
by the federal courts, and all of the judges’ victims were released with the charges dismissed
with prejudice; and some judges were charged criminally.
Currently, the Ninth Circuit and Third Circuit Court of Appeals have directly
contradictory opinions of the pay to convict (“Graft”).
The Third Circuit found, as did this Supreme Court, that the Graft is unlawful and denies
the trial court subject-matter jurisdiction. Ciaravella, Jr., Ibid., Turney, Ibid., Ward, Ibid.
The Ninth Circuit has refused to review the issue, and accepted the United States District
Court - District of Arizona’s untenable concept that the Graft is too remote to apply - a direct
contradiction to this Supreme Court’s holding in Turney, Ibid.
This Supreme Court should note that the District of Arizona Judge who so decided is a
former Arizona Judge and was being paid the very Graft in questions here, as was the Magistrate
Judge.
The Arizona Appellate Court rose to the apex of misconduct by actually misrepresenting

1.
2.
3.
4.

CORE CIVIC, GEO GROUP, et al
IJ.S. v. Ciaravella. Jr.. 716 F.3d 703 (3rd Cir. 2013)
Ward v. Village of Monroeville. 409 U.S. 57 (1972)
Tumev v. Ohio. 273 U.S. 510 (1927)
Dugan v. Ohio. 277 U.S. 61 (1928)
11

this Supreme Court’s holdings in Ward, Ibid., and Dugan, Ibid., to create specious precedent.
(Exhibit B, State v. Fender. No. 1 CA-CR 19-0586 (10-22-2020)).
In Fender, Id. at paragraph 24, the Arizona Court of Appeals states:
“We disagree that any alleged pension fund investments in.. .private prisons
constitutes a ‘direct, personal, substantial pecuniary interest’.. .The
relationship between a judge and the financial policies and investment
decisions of the pension system ADMINISTRATORS is ‘too remote to
warrant a presumption of bias toward conviction... ’ See Ward v. Village of
Monroeville. 409 U.S. 57, 60-61 (1972) (describing Dugan v. Ohio, 277
U.S. 61 (1928).” (emphasis added)
Not only does the Court of Appeals factually misrepresent Ward, Id., here - which
actually states: “This situation (i.e.: Ward) is wholly unlike Dugan...” - it also directly
contradicts the Arizona Supreme Court’s finding in Hall, infra, at paragraph 36:
“The Plan’s fund issued ‘exclusively for payment of benefits...’ and ‘for
payment of the ADMINISTRATION...” (emphasis added)
and thus proves Petitioner’s claims and allegations.
The Arizona Court of Appeals has therefore refused to abide by this, and the Arizona
Supreme Court’s holdings, by misrepresenting and/or ignoring the actual determinations.
The “ADMINISTRATOR”, Ibid., is paid by the same funding that pays the judges, Id.,
and thus the “decisions of the.. .ADMINISTRATORS” cannot be “too remote to warrant a
presumption of bias...” because the judges and “ADMINISTRATORS”, Id., are therefore co­
conspirators receiving the same Graft from the same Criminal Enterprise Syndicate Seditious
Conspiracy Confederation.
Additionally, this Supreme Court held that “the slightest pecuniary interest.. .rendered the
decision voidable” Turney, 409 at 524; and “the slightest pecuniary interest, however small or
infinitesimal”, Id. at 525 requires dismissal, Id. at 535.
Thus, the holding by the Arizona Court of Appeals in Fender, ante, evinces corruption of
the first magnitude by the Appellate Judges to protect the Criminal Enterprise Syndicate as the
means to continue receiving the Graft.
The above establishing irrefragably that no Arizona state or federal court will find against
the Graft and Syndicate and/or in concurrence with this Supreme Court because those very
judges are receiving the Graft.

12

Now that the Graft and the Judges’ Pension Fund’s investment in the Private Prisons is
becoming public knowledge through the media and court cases for the inmates and body politic,
these issues must again be resolved by this Supreme Court, as they were in Turney, ante, Ward,
ante, and Dugan, ante - because the judges who are receiving the Graft continue to unilaterally
sua sponte [without requiring the State to Respond] dismiss all cases that include arguments
relevant to the Graft and the unconstitutionality of the Pension Fund’s investment in the Private
Prisons, that, per se, deprive the Arizona courts of subject-matter jurisdiction.
In Arizona, the courts have made it abundantly clear that they disagree with the Arizona
legislature and the law, e.g.: in a case regarding forfeiture:
“We are persuaded that the general rule is that the governmental authority
has the power to enforce a forfeiture regardless of how control was obtained
over the property.. .However, our legislature has chosen to follow the
minority rule which requires a lawful seizure of the res...”
State v. Jacobsen. 141 Ariz. 421, 424 (1984)
(Exhibit E)
But, however, since the advent of the Confederation and the Graft, the Arizona courts no
longer relinquish their power to the plenary authority of the “Law” and the “Constitutions”, and
rule at will to obtain the Graft.
Comparing Arizona to two other States, it becomes clear that States other than Arizona
do respect and abide by the “Law” and “Constitutions”. See: In the Matter of Green. 67 N.C.
App. 501 (1984)(Exhibit F) and State ex rel, Hansen v. Riggs. 258 Minn. 388 (1960)(Exhibit G).
The Court of Appeals in North Carolina in Green held that: (1) subject-matter jurisdiction
could be raised for the first time on appeal, and (2) the trial court lacked subject-matter
jurisdiction where the county’s petition was not duly signed and verified as required by law,
holding:
“Jurisdiction of a court over subject matter of an action is a most critical
aspect of the court’s authority to act; a defense based upon lack of such
jurisdiction cannot be waived and may be asserted at any time.”
The Supreme Court of Minnesota in Hansen held:
“In a criminal prosecution it is necessary that the trial court have
jurisdiction of the subject matter, that is, the offense, as well as the person
of the defendant, and jurisdiction of the subject matter is derived from the
law.”

13

A fortiari, it is obvious that judges in the state and federal courts do understand the
difference between subject-matter jurisdiction and the other types of jurisdiction - with subjectmatter jurisdiction “derived from the law”, Id.
What Arizona judges refuse to acknowledge and abide by is the “Law” as determined by
this Supreme Court in regards to the “Constitution’s” requirements for Due Process (Fifth and
Fourteenth Amendment) that the judges’ be impartial and not have a financial interest in the
outcome of a case, per Turney, supra, and Ward, supra; and that persons must be “duly
convicted” to be held as a “slave” (Thirteenth Amendment). See: Green, Ibid.
This Supreme Court’s requirement of impartiality and disinterest is as much the “Law” to
almost every judge in other States, except Arizona. In Arizona, judges are hired knowing that
they will receive extrajudicially paid compensation for every conviction that leads to
imprisonment, and have fought to ensure such compensation. See: Hall, infra.
In Arizona, no one goes to prison for committing a crime - people in Arizona are sent to
prison by judges for Graft; with the amount of Graft being the sole sine qua non determining
factor for the sentence.
Even when innocent people are released from prison after discovery that they were
framed by the prosecutor, police, and judge, the judges do not have to return the Graft; and the
judge is protected by immunity even after it is shown that his rulings were biased. See: Milke v.
Ryan. 711 F.3d 998 (9th Cir. 2013); see also: State v. Krone. CR1992-000212-A (PCR5/6/2002); see also: dozens of other cases.
The judges’ Pension Fund (E.O.R.P.) is now in excess of $1,000,000,000 (one billion
dollars) and growing in direct proportion to the number of incarcerated persons - with the rate of
incarceration in Arizona growing at twice the rate of the Arizona population growth.
These two facts are as inseparable as they are insufferable under our “Laws” and
“Constitutions”, and in fact and law cannot be determined by the very judges who receive the
Graft - because, as evinced by all previous Arizona, U.S.D.C. -District of Arizona, and Ninth
Circuit cases, the judges’ receiving the Graft rule in favor of continuing the Confederation to
continue the Graft.
Therefore, this Supreme Court should grant review and the requested relief as it is the
only Court relevant to the Ninth Circuit that is not financially benefitting from the Seditious
Conspiracy and Criminal Enterprise.
14

B.

Other Pension Fund and Private Prison Effects
The Arizona Judges successfully sued the Pension Fund in 2016 after the Pension Fund

raised the Judges’ contribution requirement from 6% to 7%, HALL, et al v. ELECTED
OFFICIALS’ RETIREMENT PLAN, 241 Ariz. 33, 383 P.3d 1107 (2016), Arizona Supreme
Court, 11/10/2016). (Exhibit C)
The Arizona Supreme Court agreed with the Judges’ argument that “the pension
provisions become a part of the contemplated compensation for those services, and so in a sense
a part of the contract of employment itself.” Id. at paragraph 19. Also holding that contracts
“must be made within a constitutional framework” and “neither the legislature nor any executive
or judicial officer may disregard the provisions of the constitution even in cases of great
emergency.” Id. at paragraph 30.
There were no arguments and/or decisions relevant to the Constitution’s Article I, § 10,
clause l’s prohibitions, i.e.: “No State shall enter into a Treaty, Alliance, or Confederation...”,
even though the relationship between the other contributors to the Pension Fund constitutes an
“Alliance, or Confederation”, Id., to wit: THE STATE OF ARIZONA joined an “Alliance, or
Confederation”, Id. with the Private Prisons, other States, and/or the Pension Fund, et al, to use
“security guards” to perform police officer only functions - in direct violation of Arizona law.
A.R.S. § 32-2634 (1974 - amended 2000):
“A person employed as a security guard or armed security guard shall not
possess the authority of a regularly commissioned police or peace officer.
Any duties performed by a security guard or armed security guard shall be
performed in the capacity of a private citizen.”
1983 Ariz. Op. Atty. Gen. 27 (Ariz. A.G.) No. 183-034 WL 42690:
“Public governing bodies may not contract with private corporations to
provide law enforcement personnel and services.” (Exhibit D)
Yet, four years after the Arizona Attorney General’s Opinion and thirteen years after the
original law was enacted, the STATE OF ARIZONA did exactly what the law did not allow it to
do, i.e.: “contract with private corporations to provide law enforcement personnel and services”,
Id. and allow “security guards [to] possess the authority of regularly commissioned police or
peace officer.”, Ibid.
The Private Prisons’ unlawfully task “security guards” daily to “provide law
enforcement” only functions, to wit:

15

1.

Strip search inmates;

2.

Open inmates U.S. Mail (even “Legal Mail”);

3.

Hold illicit drugs discovered in the prison;

4.

Deny inmates emergency and/or necessary medical care;

5.

Shackle inmates;

6.

Use weapons of all sorts against inmates to control as opposed to in self-defense and/or
defense of other; and

7.

Other acts considered by law criminal if committed by a “private citizen”, Ibid.
Thus, it can be said that the Private Prisons have created an army of “armed security

guards” to usurp the authority of all three Branches of the Arizona Government (See: 18 USCA §
2384 - Seditious Conspiracy); instead of using actual Corrections Officers who are paid almost
double what the “security guards” are paid.
C.

Bias
Although the abject judicial bias and prejudice is obvious and self-evident, and has

previously been determined by this Supreme Court to be sufficient to require vacatur and
dismissal of all charges with prejudice, Arizona trials are also inclusive of sublime and
irreparable separate forms of bias and prejudice, e.g.: Juror Bias.
Private Prisons are now one of Arizona’s largest industries and one of the best producing
stocks in America. Consequently, most jurors, et al, are invested in the Private Prisons through
their employer’s Pension Fund, whether the employer be a government entity or corporate entity;
and/or have invested in them personally.
Thus, ipso facto, causing the specific juror to have a financial interest in convicting the
defendant; and ipso jure, per se, precluding the juror from the trial.
Meaning that ALL trials wherein any juror was a state or corporation employee whose
Pension Fund was invested in a Private Prison must also be vacated - which more likely than not
includes over 90% of all post-1987 Arizona criminal trials (Exhibit H).
The fact that jurors in any case failed to disclose their financial interest in the outcome of
a case is always sufficient to order vacatur. See: McDonough Power Equip, v. Greenwood, 464
U.S. 548, 555-56 (1984). See also: Smith v. Philips. 455 U.S. 209, 215 (1982). See also: Turner
v. Murray. 476 U.S. 28 (1986).

16

The only possible greater deprivation of substantive rights5 also occurs in most Arizona
criminal trials, that is: Arizona’s Public Defenders’ Pension Fund is also invested in the Private
Prisons. With the prosecutors’ and police officers’ Pension Fund also invested in the Private
Prisons.
Meaning in the case of indigent defendants the accused’s fate is decided by jurors, in a
trial by a judge, prosecuted by a prosecutor, investigated by police officers, and defended by an
attorney, who all have a personal vested financial interest in ensuring that the accused is
convicted and imprisoned for as long as possible.
The State may speciously allege that the investments in the Private Prisons by the
Pension Funds that have caused this wholesale deprivation of rights was inadvertent and an
unintentional consequence.
The facts prove otherwise.
In actuality, when the Criminal Enterprise Syndicate contrived the Seditious Conspiracy
the Graft being paid to judges, prosecutors, public defenders, police, and jurors, was foundational
to the conspiracy - with the actus reas of the investments in the Private Prisons evidencing the
mens rea of the conspirators, jointly and/or severally, to use the Graft as a bribe to cause the
judges to usurp the whole of Arizona’s “justice system”, and ensure convictions of the
financially challenged victims of the “justice system”.
This intentional, not unintentional, consequence has created, as planned, a two-tier
system of justice, i.e.: one where the wealthy can afford an attorney who benefits financially
from his client’s acquittal, and one where the poor are forced to subject their Liberty to an
attorney who financially benefits when their client is convicted and sentenced to prison.
Currently, the body politics’ cries of “systemic racism” permeate the whole of the media.
These cries miss the mark; the true enemy of justice is the “systemic corruption” based on the
Graft, not race, that guides every aspect from investigation to completion of sentence.
The fuller the Private Prisons, the greater the Graft for every Arizona government agent
who works in Arizona’s “justice system”; without any regard whatsoever to innocence or guilt.
Obviously, if every Arizona government agent was paid $10,000 for every acquittal and
5. Due Process rights - Fifth and Fourteenth Amendment; Right to Assistance of Effective Counsel - Sixth
Amendment; Right to an Impartial Jury - Sixth Amendment; Grand Jury Indictment - Fifth Amendment; Equal
Protection - Fourteenth Amendment; Right of the People - Ninth and Tenth Amendments; and others.

17

dismissal of charges and vacatur, the Government and Private Prisons would be empty. Yet,
those agents eventually receive more than that for every conviction and prison sentence.
Also obviously, none of those receiving the Graft has ever, or will ever, do anything to
end this crime against humanity and the human trafficking enterprises created by the
unconstitutional Confederation.
Therefore, this Supreme Court should do as it has previously done, affirming its
determinations in Amistad, infra, Turney. Ward, all ante, etc., and find the Graft is
unconstitutional, also emancipating and manumitting the victims of the Criminal Enterprise
Syndicate’s Seditious Conspiracy Confederation.
D.

Emancipation and Manumission of “Slaves”
This Supreme Court’s determinations in U.S. v. Amistad, 40 U.S. (15 Pet.) 518 (184),

President Abraham Lincoln’s Emancipation Proclamation and the Thirteenth Amendment are as
relevant now to this case as they were when issued for those matters.
Just as the Confederation of the “Confederate States of America” (ca. 1861) violated
Article I, § 10, clause 1, so does this current “Confederate States and Prisons”, as it is wellsettled in law that states and corporations are “persons” in law; thus, States cannot
“Confederate”, Id., with corporations any more than they can with other states; without regard to
whether the Federal Government can contract with Private Prisons vel non.
Constitutionally, in a purely objective sense, this matter and that of U.S. v. Amistad. 40
U.S. (15 Pet.) 518 (1841), are almost identical in the pertinent issues, and as such, the outcome
should be equally identical, i.e.: pursuant to federal law as determined by the United States
Supreme Court the spurious “Slaves” now, as then, must “be declared free, dismissed from the
custody of the [Government], and go without day.”, Id. at 597.
By replacing the “treaty between the United States and Spain”, Id. at 588 with the
Constitution of the United States of America, between “We the People” and the Government,
especially at Article I, § 10, cl. 1 and the Thirteenth Amendment, the salient facts between
Amistad, Ibid., and this matter are so similar that the holdings in Amistad, Ibid., must be
construed in equipoise here as to their force and effect of law - “as would best enable the United
States to comply with their [Constitution] stipulations.”, Id. at 588.
Petitioner Stuart, being a “native born [Arizonan / U.S. Citizen - Fourteenth Amendment
§ 1] bom free, and...not [a] slave...unlawfully...carried [by A.D.C.R.R. / CORE CIVIC] which
18

was unlawfully engaged in the slave trade... for the purpose of being there unlawfully sold as [a]
slave; that [CORE CIVIC], well knowing the premises, made a pretended purchase of [Stuart]:
that afterwards.. .caused [Stuart], without law or right, to be placed on board [Red Rock], and
there to be enslaved...; that, on the voyage, [Stuart] rose on the matter [through this filing],
intending to return to [his] native [State], or to seek asylum in some free state;”, Id. at 589.
“That the United States had a right to intervene in the matter” is, conversely, requested by
the Plaintiff, Stuart, in this matter. Id. at 591.
“[T]he parties before the Court on the other side of [Plaintiff].. .asserting .. .not to be [a]
slave, but free native [Arizona / U.S. Citizen] kidnapped in [his] own country, and illegally
transported by force from that country; and now entitled to maintain [his] freedom.” Id. at 591591
“It has [now] been argued on behalf of the United States, that the Court are bound to
deliver then [Stuart, et al], according to the [Constitution], which has in this particular been
continued in full force... ‘that all.. .merchandise, of what nature so ever, which shall be rescued
out of the hands of any pirates or robbers...shall be brought to some.. .state, and shall be
diverted.. .in order to be restored entire’.. .This is the article on which the main reliance is placed
on the behalf of the United States, for the [manumission] of these [“Slaves”].
First, that these [“Slaves”]... fall within the description of [slaves] in the sense of the
[Constitution]. Secondly, that there [must be] a rescue of them [by the Court - and/or United
States], out of the hands of the pirates and robbers [CORE CIVIC]; which, in the present case,
can only be, by showing that [CORE CIVIC] themselves are [a criminal conspiracy]...”, Id. at
592-593.
“If these [“Slaves”] were, at the time, lawfully held as slaves under the laws of the
[United States] and recognized by those laws as PROPERTY capable of being lawfully bought
and sold [commodified and/or collateralized]... It is plain beyond controversy, if we examine the
evidence, that these [“Slaves”] NEVER WERE THE LAWFUL SLAVES of [CORE
CIVIC]...They are natives of [Arizona/ U.S. A.]... and were kidnapped [to CORE CIVIC]...in
violation of the laws and [Constitution] of [the United States], and the most solemn edicts and
declarations of the government. By those laws,...the [Arizona] slave trade is utterly abolished;
the DEALING IN THAT TRADE IS DEEMED A HEINOUS CRIME, and the [“Slaves”]...are
declared to be FREE.” Id. at 593-594 (emphasis added)
19

“That [the “Slaves”] have been obtained by the grossest fraud and impositions upon
the constituted authorities of [Arizona and the United States]...Fraud will vitiate any, even
the most solemn of transactions; and any asserted title to [“Slaves”], founded upon [fraud],
is utterly void...”, Id. at 594.
“Nothing is more clear in the law of nations...than the doctrine, that the [corporate]
papers...if they are shown to be fraudulent, they are not to be held as proof of any valid
title...If a [corporation], clothed with [State] papers, should enter the...United States,
claiming the privileges and immunities, and rights belonging to bona fide [Government
agents]...and...in reality, belong to [a corporation] which was not entitled to such...and the
proprietors were seeking by fraud, to cover their own ILLEGAL ACTS, under the flag of
[Arizona];...it would be the duty of our Courts to strip off the disguise...”, Id. at 595.
(emphasis added)
“It is also a most important consideration in the present case,.. .that, supposing these
[Arizonans] not to be slaves, but kidnapped, and [citizens], the [“Confederation”] with [CORE
CIVIC and A.D.C.R.R. / Arizona] cannot be obligatory upon them; and the United States are
bound to respect their rights as much as those of [United States] [citizens]... A fortiori, the
doctrine must apply where human life and human liberty are in issue; and constitute the very
essence of the controversy.. .Upon the merits of the case, then, there does not seem to us to be
any ground for doubt, that those [“Slaves”] ought to be deemed free; and that the [Constitution]
interposes no obstacle to the just assertion of their rights... There is another consideration...if
not slaves, but [Arizonans] who had been [sold to CORE CIVIC], in violation of the laws of
the United States (13th Am., Art. I, § 10, cl. l)...then the Court to pass an order...to remove
such persons to [Arizona]....” These [“Slaves”].. .asserting their freedom; and in no sense
could they possibly intent to [enslave themselves - or be sold to CORE CIVIC]...”, Id. at 596597. (emphasis added)
Accordingly, Petitioner Stuart is in actuality simply requesting this Supreme Court to rule
in accord with the earlier United States Supreme Court holdings that no “state” or corporation
may transmogrify people into “Slaves” and sell them, and once said “Slaves” reach any United
States Court, that Court must manumit the “Slave(s)” and return him/them to his native land.
In Amistad, Id., the sine qua non issue was whether the slaves were slaves, the same
applies here, i.e.: is Stuart, et al, a citizen - transmogrified into a “Slave” by A.D.C.R.R..
20

The very term “Private Prison” is itself an oxymoron and incongruent in law, not unlike
the recently popularized term “Sovereign Citizen”, i.e.:
“Prison (12c) A state or federal facility of confinement for convicted
criminals, esp. felons.”
“private prison (1865) A prison that is managed by a private company, not
by a government agent.”
The Private Prisons operate more like “Slave Plantations” than a government institution;
and numerous Federal, State, and International laws prohibit the transmogrification of human
beings into fungible assets that are collateralized into commodities.
Once commodified into fungible assets, ipso facto, human beings are, per se, considered
“slave”, ipso jure, by definition.
In fact, the Constitution and numerous International Treaties prohibit persons and/or
corporations from owning and/or profiting from “slaves”, e.g.: Thirteenth Amendment,; Univ.
Dec. of Human Rights, Article 4.
The very foundation of the Private Prison concept is predicated on violating the
Thirteenth Amendment and Article 4, Id., and most of the profits used to pay the Graft are
derived from the unconstitutional commodification of the enslaved human beings, and are in
actuality taxpayer derived funds - ergo, Arizona is paying corporations to enslave taxpayers.
Absent the investment in the Private Prisons the Pension Funds’ actuarial value would be
greatly diminished, and possibly fail and/or be allowed by law to increase the contribution
requirement by the judges. See: Hall. 383 P.3d at 1110-1112.
The Arizona judges are obviously well aware of this fact, as evidenced by Hall. Id.; so
the Arizona judges have made the unconscionable choice to allow the unconstitutional “slavery”
to continue for the judges’ unconscionable financial benefits.
Simply stated, Arizona judges have become the 21st Century’s Slave Traders, and are
using their unconstitutional color of authority to protect their 21st Century “Confederation of
States and Prisons” (Art. I, § 10, cl. 1) that, like its 1860’s doppelganger, the Confederate States
of America, diverts taxpayer derived funds to Slave Plantations owners and the Slave Traders
that provide the slaves.
Thus, the similarities between the unlawful means used by the State to convert defendants
into “slaves” is undeniably similar to the unlawful means used by the crew of the Amistad to
convert free Africans into “slaves” in violation of Spanish and U.S. law.
21

E.

Laws that the Criminal Enterprise Syndicate Confederation, the Private Prisons,

and/or conspirators must violate to be financially viable and survive.
ARIZONA LAW
1.

A.R.S. § 32-2634 - using “security guards” as police

2.

A.R.S. §§ 32-2601, et seq. “security guards”

3.

A.R.S. §§ 13-1301, et seq. - kidnapping

4.

A.R.S. §§ 13-1401, et seq. - sexual assault

5.

A.R.S. §§ 13-2201, et seq. - Commercial fraud

6.

A.R.S. §§ 13-2301, et seq. - Organized fraud and terrorism

7.

A.R.S. §§ 13-2601, et seq. - Bribery

8.

A.R.S. §§ 13-2701, et seq. - Perjury

9.

A.R.S. §§ 13-2801, et seq. - Interfering with Judicial Proceedings

10.

A.R.S. §§ 39-161 - filing a false document

11.

And others
FEDERAL LAW

1.

18 U.S.C.A. §§ 1961-68 - R.I.C.O.

2.

18 U.S.C.A. § 1956 - Money Laundering

3.

18 U.S.C.A. § 2384 - Seditious Conspiracy

4.

18 U.S.C.A. § 1201 - Kidnapping

5.

18 U.S.C.A. § 1591 - Human Trafficking

6.

26 U.S. Code § 7201 - Tax fraud

22

ACTUAL INNOCENCE
Petitioner is factually actually innocent, and has always stated such; and claimed in every
proceeding since arraignment that the evidence being unlawfully suppressed (‘Brady’ material)
proves this fact. Consequently the State and court have allowed the Brady material to remain
suppressed for over thirteen years, inclusive of DNA test results that fully exculpate Petitioner.
The District Court denied Petitioner’s Petition for Writ of Habeas Corpus (“Habeas”)
rStuart v. Shinn (formerly Ryan). CV-19-2540-PHX-GMS-ESW (filed 4-19-2019), U.S.D.C.Dist. Of Ariz.] for its agreement to Respondent’s baseless claims and allegations of “failure to
exhaust” and “procedural bar”, in Respondent’s “Limited Answer”. The merits of the case were
not argued by Respondent or entertained by the District Court Magistrate Judge or Judges - both
of whom are invested in the Private Prisons through their previous Arizona court employment.
FAILURE TO EXHAUST
In the State’s / Respondent’s “Limited Answer” they failed, intentionally, to admit that
Petitioner had filed an Arizona Supreme Court Habeas Petition that was almost identical to the
District Court Habeas, so “failure to exhaust” was a functional impossibility. See: O’Sullivan v.
Boerckel. 526 U.S. 838 (1999).
Petitioner motioned for sanctions against Respondent’s counsel for the calumnies, but the
District Court Magistrate Judge sided with Respondent, and the issue was then ignored by the
District Court Judge.
PROCEDURAL DEFA ULT
Respondent also speciously alleged “procedural default” although the issues had never
been reviewed on the merits, and always just ignored by the State courts.
The irrefragable fact that the suppressed Brady material does establish that Petitioner is
factually actually innocent precludes the arguments and holding of procedural default. Murray v.
Carrier. 477 U.S. 478, 496 (1986), quoted in McQuiggin v. Perkins, 133 S. Ct. 1924, 1931
(2013). See: Cage v. Louisiana, 498 U.S. 39 (1990).
MANIFEST NECESSITY
Under our Constitution “The Privilege of the Writ of Habeas Corpus shall not be
suspended...” (Art. I, § 9, cl.2). In actuality the District Court did “suspend”, Id., Petitioner’s
“Privilege of the Writ of Habeas Corpus”, Id., to prejudicially favor Respondent by not even

23

entertaining Petitioner’s Habeas on the merits; the same can be said of the Arizona Supreme
Court (Art. II, § 14, Ariz. Const.).
This manifest injustice through the miscarriage of justice was intentional, and caused by
the District Court’s [and Arizona Supreme Court’s] willful acts defined under the manifestdisregard doctrine.
It is not coincidental that all of the State and Federal judges who have deprived Petitioner
of his Constitutionally guaranteed substantive rights are also going to receive pecuniary gain for
Petitioner being deprived of his rights, and wrongfully imprisoned.
This is how the justice system now works in Arizona’s State and Federal courts since the
advent of the Confederation, and why the Confederation shall never be stopped by any State or
Federal court except this Supreme Court; i.e.: the Graft is paid by the syndicate’s Confederation
to ensure that the courts keep sending “assets” to the prisons, without regard to innocence or
guilt.
To the judges - it’s about the Graft.
To Respondent - it’s about saving money.
To the Private Prisons - it’s about the amount of profit, and more “assets”
(inmates/slaves) equals more profit.
To the syndicate’s Confederation - it’s about controlling the whole of Arizona’s judiciary
and justice system as the means of controlling the whole of, and thus profiting from, Arizona’s
economy by:
1) usurping government authority; and
2) preventing the execution of laws; and
3) seize government property.
See: 18 U.S.C.A. § 2384, 18 U.S.C.A. §§ 1956-1968.
(See: Exhibit I - Grand Jury Detail - For hearsay testimony).
Petitioner is factually actually innocent, and the police, prosecutor, and trial judges all
know this because they saw the exculpatory evidence that they, jointly and/or severally,
destroyed-altered-“lost”-precluded-and/or otherwise suppressed.
The first trial jury also knew this and were only willing to convict on a lesser-included
charge, evidencing that they acquitted on the greater charges, so the judge declared the mistrial
to prevent the jury from issuing its verdict; in Arizona a jury may only consider a lesser-included
24

AFTER acquitting on the greater charge. State v. Eddington. 226 Ariz. 72, 85, f 29 (App. 2010)
. .the court then told the jurors they MUST NOT consider the lesser manslaughter offense
unless they either acquitted...” -(emphasis added)- “We found no error in the.. .instruction...” In
Eddington, the trial court told the jury the truth about the lesser-included offense as opposed to
the judge maliciously telling the jury that there is no such law in Arizona in Petitioner’s case.
The trial court also redacted the jury instructions for self-defense, A.R.S. § 13-404, to cause the
law to appear to be the opposite of the laws intent.
Also in Arizona, the trial courts cannot declare a mistrial over a defendant’s objection
without FIRST showing a manifest necessity for the mistrial - which did not exist in Petitioner’s
trial. State v. Dickinson, 242 Ariz. 120 (App. 20\l)(passim).
Thus, pursuant to Arizona and Federal law the mistrial was abuse of discretion to conceal
abuse of discretion, and as such, jeopardy remains attached to Petitioner’s first trial,
notwithstanding the jurisdiction issues. Proving conclusively that Petitioner was imprisoned
under false pretenses so that the judge would receive Graft from the syndicate’s Confederation.
FINALLY, the “Whitehorse” cases, Turney, Ward, Ciaravella, Jr., all ante, are the
precedents here; each of which require that in cases wherein the judges receive Graft for
convictions the whole of the matter is void and the defendant(s) must be set free.
In Turney and Ward that meant one each, in Ciaravella, Jr„ that meant almost 1,000
juveniles - here, as in Amistad, it means all of those transmogrified into “slaves”, by merchants
violating treaties, charters, and constitutions, must be set free - "all of those”, Ibid., are those
convicted and/or sentenced in Arizona court(s) after 1987.
This Supreme Court should not regard the quantity of those who must be freed, it should
only regard the quality of the precedents and cases. (See: Thirteenth Amendment).
When President Lincoln issued the Emancipation Proclamation (ca. 1863) he gave no
mention of the quantity of slaves to be freed, he wrote only of the quality of freedom they must
be granted; this is the plenary binding precedent in this matter, and is sine qua non to this
Supreme Court’s determination of whether the Graft vitiates jurisdiction vel non.

25

CONCLUSION
This Court has always held, pursuant to ancient legal concepts and the very foundation of
fundamental-fairness doctrine as an aspect of the Due Process Clauses that: “it certainly violates
the Fourteenth Amendment, and deprives a defendant in a criminal case of due process of law to
subject his liberty or property to the judgment of a court the judge of which has a direct,
personal, substantial, pecuniary interest in reaching a conclusion against him in his case. Ward,
409 U.S. at 56-60 quoting Turney, 273 U.S. at 523.
Turney, 273 U.S. at 524-525 made it abundantly clear “that the slightest pecuniary
interest of any officer, judicial or quasi-judicial, in the resolving of the subject-matter
which he was to decide, rendered the decision voidable...at the common law the greatest
sensitiveness over the existence of any pecuniary interest, however small or infinitesimal...”
voids the conviction. Id. at 535.
Some thirty five years ago a criminal enterprise syndicate contrived a scheme and artifice
to usurp this Supreme Court’s holding in Turney, Ibid., and Ward, Ibid., by creating an
unconscionable unconstitutional Confederation (Art. I, § 10, cl. 1) to monetize and commodify
prisoners into fungible assets by bribing criminal trial court judges to ensure convictions and
draconian sentences, with money laundered through Pension Funds, and allow the syndicate to
use the Confederation to control the whole of Arizona’s judiciary.
This modem day “Confederate States”, and corporations, is similar in effect and illegality
as the previous (ca. 1861) “Confederate States of America”, just as the monetization of inmates
is similar to the monetization of Africans by the sailors of the Amistad, 40 U.S. 518, and the sale
of juveniles by the judges in Ciaravella Jr., and its collateral cases.
The fact that the Confederation has grown to assimilate the whole of Arizona’s judiciary
and most of Arizona’s economy does not in any way diminish the criminality of the syndicate
and/or the unconstitutionality of the Confederation.
Petitioner’s case is typical of the way Arizona criminal trials are conducted since the
syndicate’s Confederation has attained the position of plenary controller of the Arizona “justice
system” and the taxation derived funds used to support both the prisons and the courts.
All other crimes committed by the syndicate notwithstanding, the Confederation is, per
se, unconstitutional; and Arizona criminal courts have lacked the requisite subject-matter

26

jurisdiction to proceed against any and all defendants since the inception of the syndicate’s
Confederation (ca. 1987), inclusive of Petitioner, et al.
The Confederation continues to grow in equipoise to its criminality, with its number of
victims growing at twice the rate of Arizona’s population growth.
WHEREFORE, Certiorari should be granted to review the constitutionality of the Graft,
the Confederation, and Petitioner’s conviction, with a determination by this Supreme Court
relevant to the lack of subject-matter jurisdiction vel non of Arizona’s criminal trial courts since
the judges of which started receiving the Graft from the syndicate’s unconstitutional
Confederation, and misquoting law to obtain fallacious convictions to “earn” the Graft and
obtain the bribe. “Fiat Justitia, Ruat Caelum.”

Respectfully submitted on this

by:

day of

-John C. Stuart, pro se
287294
ASPC: Red Rock
1750 E. Arica Road
Eloy, EZ 85131

2e?2 /

DECLARATION
I declare under penalty of perjury that according to the word count by the computer is 8^26.6-^-and
that the foregoing is true and correct.

^

By:

Date:

krftn C. Stuart
SUBSCRIBED AND SWORN on V\ toftitCH

______, 2021,

before me, ^)l?VTui K dlhLlL___________

_, an Arizona Notary Public.

Dustin Clark
Notary Public - Arizona
Pinal
County
fjj&M Commission Number
572889
My Comm. Exp. 11/5/2023

Notary Public

My commission expires:
11 fftfif7ii73
27

